HHS/OIG, Audit - "Medicare Part B Payments for Radiology Services Provided During
Inpatient Stays:   2001 Through 2003," (A-01-04-00528)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare
Part B Payments for Radiology Services Provided During Inpatient Stays:   2001
Through 2003," (A-01-04-00528)
August 24, 2006
Complete
Text of Report is available in PDF format (525 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether carriers made inappropriate Part
B payments for outpatient radiology services provided to Medicare beneficiaries during inpatient
stays at prospective payment system (PPS) hospitals.  During calendar years 20012003,
carriers inappropriately made Part B payments for 100,034 outpatient radiology services provided
to PPS hospital inpatients.   Rather
than billing the hospitals for these services, radiology suppliers billed the carriers and
received separate payments.
We recommended that CMS:  (1)
instruct the Medicare carriers to recover the $20 million in potential overpayments identified
in our review and monitor the recovery of those overpayments, (2) establish prepayment
controls to detect and prevent separate payments for Medicare Part B radiology services
provided to beneficiaries during inpatient stays in PPS hospitals and/or develop postpayment
review procedures to identify suppliers that submit and receive payments for inappropriate
billings, and (3) alert the Medicare carriers to the most common types of payment errors
and help them educate radiology suppliers about such improper billings.  CMS generally
agreed with our recommendations.